PROOF OF SERVICE

I, Allan E. Parker Jr., a member of the bar of this Court, hereby certify that on the
7th day of December, 2020, three (3) copies of the Brief Amicus Curiae of The
Justice Foundation, supporting the Petitioner’s Petition for a Writ of Certiorari in
No. 20-618, Routten v. Routten, were served by first-class mail, postage pre-paid, on
the following:
Counsel for Petitioners
Robert Daniel Gibson
Counsel of Record
Stam Law Firm
510 W. Williams Street
Apex, NC 27502
dan@stamlawfirm.com
Counsel for Respondent
Jill Schnabel Jackson
Counsel of Record
Jackson Family Law
3801 Computer Dr. #204
Raleigh, NC 27609
jill@jacksonfamilylaw.com
/s/ Allan E. Parker Jr.

Allan E. Parker Jr.
Counsel of Record
The Justice Foundation
8023 Vantage Dr., Suite 1275
San Antonio, TX 78230
(210) 614-7157
Parker4justice@gmail.com

